Executive Report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenuesby the Inglewood, California Police Department
GR-90-00-009March 2000Office of the Inspector General

EXECUTIVE SUMMARY
The United States Department of Justice, Office of the Inspector General, has completed an audit of the use of equitable sharing revenues by the Inglewood, California Police Department (IPD).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.

Although the IPD receives equitable sharing revenues, the City of Inglewood (City) performs the accounting functions for those revenues and controls their expenditure.  Our audit encompassed equitable sharing transactions during the fiscal years (FY) 1996, 1997, 1998, and 1999.  During those years, the City generally accounted adequately for the receipt of equitable sharing revenues.  However, we also found the following.


The City did not use equitable sharing revenues in accordance with the intended use stated on the Application for Transfer of Federally Forfeited Property (Forms DAG-71) submitted by the IPD.
	In FYs 1998 and 1999, the City used equitable sharing revenues to fund IPD overtime; however, this was done in a way that may have resulted in a prohibited supplanting of local resources.  Moreover, the equitable sharing revenues may have been used to pay for the overtime of civilians, contrary to DOJ policy for the use of equitably shared cash.  As a result, we found unsupported costs of $343,632.
	The City failed to credit interest earned by the equitable sharing account to that account in FYs 1996 through 1998.
	The Annual Certification Reports submitted by the City did not accurately reflect equitable sharing activity in the 4 years audited and were submitted late in 3 of those years.
The audit results are discussed in the Findings and Recommendations section of this report.  Our audit Scope and Methodology appear in the Appendix.